TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Fiscal Year 2005 Review of Compliance With
                  Legal Guidelines When Conducting Seizures of
                               Taxpayers’ Property


                                             June 2005

                             Reference Number: 2005-30-091




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information
 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                          3

Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have any questions or
Richard Dagliolo, Acting Assistant Inspector General for Audit (Small Business and
Corporate Programs), at (631) 654-6028.
Fiscal Year 2005 Statutory Review of Compliance With Legal Guidelines When Conducting
                             Seizures of Taxpayers’ Property




                                               Table of Contents


Background ............................................................................................... Page 1
The Internal Revenue Service Did Not Always Comply With Legal
Provisions and Internal Procedures When Conducting Seizures .............. Page 2
Internal Guidelines for Conducting Seizures Can Be Improved to
Help Prevent Possible Abuses of Taxpayers’ Rights................................. Page 7
         Recommendations 1 through 3:.....................................................Page 12

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 13
Appendix II – Major Contributors to This Report ....................................... Page 14
Appendix III – Report Distribution List ....................................................... Page 15
Appendix IV – Outcome Measures............................................................ Page 16
Appendix V – Synopsis of Selected Legal Provisions for Conducting
Seizures .................................................................................................... Page 17
Appendix VI – Prior Reports on Compliance With Seizure Procedures..... Page 20
Appendix VII – Forms Required to Be Provided to the Taxpayer for
Sale of Seized Property and Number of Instances Not Provided .............. Page 21
Appendix VIII – Management’s Response to the Draft Report .................. Page 22
Fiscal Year 2005 Statutory Review of Compliance With Legal Guidelines When Conducting
                             Seizures of Taxpayers’ Property

                                 The collection of unpaid tax by the Internal Revenue
Background
                                 Service (IRS) generally begins with letters to the taxpayer
                                 followed by telephone calls and personal contacts by an IRS
                                 employee. The employees who make personal contact are
                                 referred to as revenue officers. They consider the
                                 taxpayer’s ability to pay the tax and discuss alternatives,
                                 such as installment payment agreements or offers in
                                 compromise.1 If these actions have been taken and the
                                 taxpayer has not fully paid the tax due, the revenue officer
                                 has the authority to take the taxpayer’s funds or property for
                                 the payment of tax. Taking a taxpayer’s property for unpaid
                                 tax is commonly referred to as a “seizure.”
                                 To ensure taxpayers’ rights are protected, the IRS
                                 Restructuring and Reform Act of 1998 (RRA 98)2 amended
                                 the seizure provisions in Internal Revenue Code (I.R.C.)
                                 Sections (§§) 6330 through 6344 (1994 & Supp. IV 1998).
                                 These provisions and the IRS’ internal procedures are very
                                 specific regarding how a seizure should be performed. See
                                 Appendix V for a synopsis of the applicable legal
                                 provisions.
                                 The Treasury Inspector General for Tax Administration is
                                 required under I.R.C. § 7803(d)(1)(A)(iv) (Supp. IV 1998)
                                 to annually evaluate the IRS’ compliance with these legal
                                 seizure provisions to ensure taxpayers’ rights were not
                                 violated while conducting seizure actions. We have
                                 evaluated the IRS’ compliance with the seizure provisions
                                 since Fiscal Year (FY) 1999. See Appendix VI for a list of
                                 all prior audit reports issued on the IRS’ compliance with
                                 seizure procedures.
                                 Since the enactment of the RRA 98, the number of seizures
                                 conducted by the IRS has significantly decreased. Figure 1
                                 illustrates the number of seizures for the past 8 fiscal years.




                                 1
                                   An offer in compromise is a proposal by a taxpayer to settle unpaid
                                 account(s) for less than the full amount of the balance due.
                                 2
                                   Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered
                                 sections of 2 U.S.C., 5 U.S.C. app., 16 U.S.C., 19 U.S.C., 22 U.S.C.,
                                 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                                                                                 Page 1
  Fiscal Year 2005 Statutory Review of Compliance With Legal Guidelines When Conducting
                               Seizures of Taxpayers’ Property

                                                Figure 1: IRS Seizures by Fiscal Year


                                      12,000 10,090


                                       8,000


                                       4,000          2,307
                                                              161   74   234   296   399   440
                                           0
                                               1997 1998 1999 2000 2001 2002 2003 2004

                                    Source: IRS Oversight Board Annual Report 2001 for
                                    FYs 1997–1999 and the IRS 2004 Databook for
                                    FYs 2000–2004.

                                   We performed this audit in the IRS Small Business/
                                   Self-Employed (SB/SE) Division Headquarters in
                                   New Carrollton, Maryland, during the period
                                   September 2004 through February 2005. This audit focused
                                   on determining whether the IRS conducted seizures in
                                   compliance with legal provisions and internal procedures. It
                                   was not intended to determine whether the decision to seize
                                   was appropriate or to identify the cause of any violations.
                                   The audit was performed in accordance with Government
                                   Auditing Standards. Detailed information on our audit
                                   objective, scope, and methodology is presented in
                                   Appendix I. Major contributors to the report are listed in
                                   Appendix II.
                                   Our review of a random sample of 50 of 375 seizures
The Internal Revenue Service Did
                                   conducted between July 1, 2003, and June 30, 2004,
Not Always Comply With Legal
                                   determined the IRS did not comply with all legal and
Provisions and Internal
                                   internal guidelines when conducting seizures. In
Procedures When Conducting
                                   12 (24 percent) of the 50 seizures reviewed, we identified
Seizures
                                   17 instances in which the IRS did not fully comply with the
                                   I.R.C. While we did not identify any instances where the
                                   taxpayers were adversely affected, not following the legal
                                   and internal guidelines could result in abuses of taxpayers’
                                   rights.
                                   The types of I.R.C. violations we discuss below are the
                                   same as those we reported in last year’s mandatory review


                                                                                            Page 2
Fiscal Year 2005 Statutory Review of Compliance With Legal Guidelines When Conducting
                             Seizures of Taxpayers’ Property

                                 “previously required by the IRC to bid in the property for
                                 the government, but precluded by the U.S. Code from
                                 bidding in property for more than the amount of the tax
                                 liability plus costs.” The Commissioner went on to state the
                                 IRS Office of Chief Counsel has continued to support that
                                 position. However, in light of the GAO recommendation,
                                 the Commissioner stated, “we can again raise the issue with
                                 Counsel.”
                                 While we agree the IRS can legally set the minimum bid at
                                 the amount of the taxpayer’s total liability, we agree with
                                 the GAO that the taxpayer’s interests and rights could be
                                 better protected.
                                 IRM guidelines need to be clarified as to when expenses
                                 incurred for title search and encumbrance information
                                 reports are to be charged to the taxpayers’ accounts
                                 The I.R.C. and IRM require the revenue officer to make a
                                 determination that there will be sufficient net proceeds to
                                 apply to the liability prior to recommending a case for
                                 seizure. To determine if there will be sufficient net
                                 proceeds available, the revenue officer must complete an
                                 equity determination, which includes a complete public
                                 records search, to identify all recorded encumbrances and
                                 interests in the property to be seized. The IRM states that,
                                 at local management option, commercial firms may be
                                 contracted to provide title search and encumbrance
                                 information reports.
                                 I.R.C. § 6341 states the IRS shall determine the expenses to
                                 be allowed in all cases of levy and sale. The IRM states it is
                                 essential all expenses of sale be debited against the
                                 taxpayer’s account so the expenses are satisfied from the
                                 proceeds of the sale. The IRM also states the cost of title
                                 search and encumbrance information reports “may be
                                 charged” to the balance due accounts as an expense. The
                                 IRM provides a list of expenses that should be considered as
                                 an expense of the seizure and, while not all-inclusive, the
                                 list does not include expenses for title search and
                                 encumbrance information reports.
                                 IRS management advised us that, based on prior practice,
                                 judgment searches, title searches, etc., were viewed as
                                 administrative or investigative expenses and not considered

                                                                                       Page 11
Fiscal Year 2005 Statutory Review of Compliance With Legal Guidelines When Conducting
                             Seizures of Taxpayers’ Property

                                                                                                  Appendix I


                          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether seizures conducted by the Internal
Revenue Service (IRS) complied with legal provisions set forth in Internal Revenue Code
Sections 6330 through 6344 (1994 & Supp. IV 1998) and with the IRS’ own internal
procedures.1
To accomplish our objective, we:
I.      Obtained documentation of national guidance provided to employees; identified IRS
        systems, policies, and practices for ensuring compliance with legal provisions and
        internal procedures related to seizures; and determined how these tools were used.
II.     Reviewed a random sample of 50 of the 375 seizures conducted by the IRS from
        July 1, 2003, through June 30, 2004. The seizures were reviewed to determine
        compliance with legal provisions and internal procedures and whether the proceeds and
        applicable expenses of the seizures and sales were properly recorded to taxpayers’
        accounts on the IRS’ main computer system. A random sample was used to ensure each
        of the 375 seizures had an equal chance of being selected.




1
 This audit focused on determining whether the IRS conducted seizures in compliance with legal and internal
procedures. It was not intended to determine whether the decision to seize was appropriate.
                                                                                                         Page 13
Fiscal Year 2005 Statutory Review of Compliance With Legal Guidelines When Conducting
                             Seizures of Taxpayers’ Property

                                                                                 Appendix II


                           Major Contributors to This Report

Richard Dagliolo, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Parker F. Pearson, Director
Amy L. Coleman, Audit Manager
James D. Dorrell, Lead Auditor
Julian E. O’Neal, Senior Auditor
Janis Zuika, Auditor




                                                                                       Page 14
Fiscal Year 2005 Statutory Review of Compliance With Legal Guidelines When Conducting
                             Seizures of Taxpayers’ Property

                                                                               Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Collection, Small Business/Self-Employed Division SE:S:C
Director, Collection Policy, Small Business/Self-Employed Division SE:S:C:CP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                    Page 15
Fiscal Year 2005 Statutory Review of Compliance With Legal Guidelines When Conducting
                             Seizures of Taxpayers’ Property

                                                                                   Appendix IV


                                         Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
•   Taxpayer Rights and Entitlements – Potential; 12 taxpayers for whom the Internal Revenue
    Service did not comply with legal provisions and internal procedures when conducting
    seizures (see page 2). While we did not identify any instances where the taxpayers were
    adversely affected, not following legal and internal guidelines could result in abuses of
    taxpayers’ rights.
•   Taxpayer Rights and Entitlements – Potential; 9 taxpayers for whom internal guidelines for
    conducting seizures can be improved to help prevent abuses of taxpayers’ rights (see page 7).
    (Four of these nine are also included in the 12 above.) While we did not identify any
    instances where the taxpayers were adversely affected, not following legal and internal
    guidelines could result in abuses of taxpayers’ rights.
Methodology Used to Measure the Reported Benefit:
We selected a random sample of 50 seizures from a population of 375 seizures conducted from
July 1, 2003, through June 30, 2004. A random sample was used to ensure each of the
375 seizures had an equal chance of being selected.




                                                                                          Page 16
Fiscal Year 2005 Statutory Review of Compliance With Legal Guidelines When Conducting
                             Seizures of Taxpayers’ Property

                                                                                                        Appendix V


             Synopsis of Selected Legal Provisions for Conducting Seizures

Internal Revenue Code (I.R.C.) Section (§) 6330 (Supp. IV 1998) requires the Internal
Revenue Service (IRS) to issue the taxpayer a notice of his or her right to a hearing prior to
seizure action. The notice must be (1) given in person, (2) left at the taxpayer’s home or
business, or (3) mailed certified-return receipt requested, not less than 30 days before the day of
the seizure. The notice must explain in simple terms (1) the amount owed, (2) the right to
request a hearing during the 30-day period, and (3) the proposed action by the IRS and the
taxpayer’s rights with respect to such action.
The statute of limitations for collection is suspended from the time a taxpayer requests a hearing
and while such hearings and appeals are pending, except when the underlying tax liability is not
at issue in the appeal and the court determines the IRS has shown good cause not to suspend the
seizure. No limitation period may expire before 90 days after a final determination. These
procedures do not apply if the collection of tax is at risk.
I.R.C. § 6331 (1994 & Supp. IV 1998) authorizes the IRS to seize a taxpayer’s property for
unpaid tax after sending the taxpayer a 30-day notice of intent to levy.1 This section also
prohibits seizure (1) during a pending suit for the refund of any payment of a divisible tax,
(2) before a thorough investigation of the status of any property subject to seizure, or (3) while
either an offer in compromise2 or an installment agreement is being evaluated and, if necessary,
30 additional days for the taxpayer to appeal the rejection of the offer in compromise or
installment agreement.
I.R.C. § 6332 (1994 & Supp. IV 1998) requires a third party in possession of property subject to
seizure to surrender such property when a levy notice is received. It contains sanctions against
third parties that do not surrender such property when a levy notice is received.
I.R.C. § 6333 (1994 & Supp. IV 1998) requires a third party with control of books or records
containing evidence or statements relating to property subject to seizure to exhibit such books or
records to the IRS when a levy notice is received.
I.R.C. § 6334 (1994 & Supp. IV 1998) enumerates property exempt from seizure. The
exemption amounts are adjusted each year and included $6,890 for the period July 1, 2003,
through December 31, 2003, and $7,040 for the period January 1, 2004, through June 30, 2004,
for fuel, provisions, furniture, and personal effects, and $3,440 for the period July 1, 2003,


1
  A levy is a means to take property by legal authority to satisfy a tax debt. The IRS uses a levy as a tool to collect
on balance due accounts that are not being voluntarily paid.
2
  An offer in compromise is a proposal by a taxpayer to settle unpaid accounts for less than the full amount of the
balance due.
                                                                                                               Page 17
Fiscal Year 2005 Statutory Review of Compliance With Legal Guidelines When Conducting
                             Seizures of Taxpayers’ Property

through December 31, 2003, and $3,520 for the period January 1, 2004, through June 30, 2004,
for books and tools necessary for business purposes. Also, any primary residence, not just the
taxpayer’s, is exempt from seizure when the amount owed is $5,000 or less. Seizure of the
taxpayer’s principal residence is allowed only with the approval of a United States (U.S.) District
Court judge or magistrate. Property used in an individual taxpayer’s business is exempt except
with written approval of the Area Office Director, and the seizure may only be approved if other
assets are not sufficient to pay the liability.
I.R.C. § 6335 (1994 & Supp. IV 1998) contains procedures for the sale of seized property.
Notice must be given to the taxpayer; the property must be advertised in the county newspaper or
posted at the nearest post office; and such notices shall specify the time, place, manner, and
conditions of sale. It requires the property be sold not less than 10 days or more than 40 days
from the time of giving public notice. Finally, this section expressly prohibits selling seized
property for less than the minimum bid.
I.R.C. § 6336 (Supp. IV 1998) contains procedures for the accelerated disposition of perishable
property. This is property such as fresh food products or any property that requires prohibitive
expenses to maintain during the normal sale time period. The property may either be sold
quickly or returned to the taxpayer in exchange for payment of a bond.
I.R.C. § 6337 (1994 & Supp. IV 1998) allows the taxpayer to redeem seized property prior to
sale by paying the amount due plus the expenses of the seizure. It also allows a taxpayer to
redeem real property within 180 days of the sale by paying the successful bidder the purchase
price plus 20 percent per annum interest.
I.R.C. § 6338 (1994 & Supp. IV 1998) requires the IRS to give purchasers of seized property a
certificate of sale upon full payment of the purchase price. This includes issuing a deed to real
property after expiration of the 180-day period required by I.R.C. § 6337. The deed is
exchanged for the certificate of sale issued at the time of the sale.
I.R.C. § 6339 (1994 & Supp. IV 1998) provides the legal effect of the certificate of sale for
personal property and the transfer deed for real property.
I.R.C. § 6340 (1994 & Supp. IV 1998) requires each Area Office to keep a record of all sales of
seized property. This record must include the tax for which such sale was made, the dates of
seizure and sale, the name of the party assessed, all proceedings in making such sale, the amount
of expenses, the names of the purchasers, and the date of the deed or certificate of sale of
personal property. The taxpayer will be furnished (1) the information above except the
purchasers’ names, (2) the amount of such sale applied to the taxpayer’s liability, and (3) the
remaining balance of such liability.
I.R.C. § 6341 (1994 & Supp. IV 1998) allows expenses for all seizure and sale cases.
I.R.C. § 6342 (1994 & Supp. IV 1998) enumerates how the proceeds of a seizure and sale are to
be applied to a taxpayer’s account. Proceeds are applied first to the expenses of the seizure and
sale proceedings. Then, any remainder is applied to the taxpayer’s liability.
                                                                                           Page 18
Fiscal Year 2005 Statutory Review of Compliance With Legal Guidelines When Conducting
                             Seizures of Taxpayers’ Property

I.R.C. § 6343 (1994 & Supp. IV 1998) outlines various conditions under which a seizure may
be released and property returned to the taxpayer. These conditions include full payment of the
liability, determination of a wrongful seizure, financial hardship, etc. This section allows a
consent agreement between the U.S. and either the taxpayer or the National Taxpayer Advocate
when the return of seized property would be in the taxpayer’s best interest.
I.R.C. § 6344 (1994 & Supp. IV 1998) contains cross-references for I.R.C. §§ 6330 through
6344.
Public Law Number 105-206 (IRS Restructuring and Reform Act of 1998)3 § 3443 required
the IRS to implement a uniform asset disposal mechanism by July 22, 2000, for sales of seized
property under I.R.C. § 6335. This mechanism was designed to remove revenue officers from
participating in the sales of seized assets.




3
 Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).


                                                                                                             Page 19
Fiscal Year 2005 Statutory Review of Compliance With Legal Guidelines When Conducting
                             Seizures of Taxpayers’ Property

                                                                               Appendix VI


               Prior Reports on Compliance With Seizure Procedures

The Internal Revenue Service Needs to Improve Compliance with Legal and Internal Guidelines
When Taking Taxpayers’ Property for Unpaid Taxes (Reference Number 199910072, dated
September 1999).
The Internal Revenue Service Has Significantly Improved Compliance With Legal and Internal
Guidelines When Seizing Taxpayers’ Property (Reference Number 2000-10-114, dated
August 2000).
Letter Report: The Internal Revenue Service Complied With Legal and Internal Guidelines
When Seizing Property for Payment of Tax (Reference Number 2001-10-061, dated May 2001).
The Internal Revenue Service Has Taken Significant Actions, But Increased Oversight Is Needed
to Fully Implement the Uniform Asset Disposal Mechanism (Reference Number 2002-10-005,
dated November 2001).
The Internal Revenue Service Continues to Comply With the Law When Seizing Taxpayers’
Property (Reference Number 2002-40-155, dated August 2002).
Fiscal Year 2003 Statutory Audit of Compliance With Seizure Procedures (Reference
Number 2003-40-115, dated May 2003).
Legal and Internal Guidelines Were Not Always Followed When Conducting Seizures of
Taxpayers’ Property (Reference Number 2004-30-149, dated August 2004).




                                                                                      Page 20
Fiscal Year 2005 Statutory Review of Compliance With Legal Guidelines When Conducting
                             Seizures of Taxpayers’ Property

                                                                       Appendix VIII



                    Management’s Response to the Draft Report




                                                                              Page 22
Fiscal Year 2005 Statutory Review of Compliance With Legal Guidelines When Conducting
                             Seizures of Taxpayers’ Property




                                                                              Page 23
Fiscal Year 2005 Statutory Review of Compliance With Legal Guidelines When Conducting
                             Seizures of Taxpayers’ Property




                                                                              Page 24
